Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL




 MAINE IMPROPERLY CLAIMED
   MEDICAID PAYMENTS FOR
   SCHOOL-BASED HEALTH
   SERVICES SUBMITTED BY
PORTLAND SCHOOL DEPARTMENT


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                       David Lamir
                                                      Acting Regional
                                                     Inspector General

                                                         April 2013
                                                       A-01-11-00011
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In Maine, the Department of Health and
Human Services, Office of MaineCare Services (State agency) administers the Medicaid
program.

Section 411(k)(13) of the Medicare Catastrophic Coverage Act of 1988 (P. L. No. 100-360)
amended section 1903(c) of the Act to permit Medicaid payment for medical services provided
to children under the Individuals with Disabilities Education Act through a child’s individualized
education plan (IEP). Pursuant to Federal and State requirements, such services require a referral
or prescription from a properly credentialed physician or licensed practitioner. These services
must be documented fully and provided by an individual who meets Federal qualification
requirements. In addition, these services must be documented in the child’s IEP.

During calendar years 2006 through 2008, the State agency claimed $5,014,928 ($3,213,813
Federal share) for Medicaid payments made to Portland, Maine, for school-based health services.

We reviewed a random sample of 120 student months totaling $60,707 ($38,937 Federal share).
A student month represented all paid Medicaid school-based health services provided to an
individual student for a calendar month.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for school-based health services submitted by the Portland School Department in
accordance with Federal and State requirements.

SUMMARY OF FINDING

The State agency did not always claim Federal Medicaid reimbursement for school-based health
services submitted by the Portland School Department in accordance with Federal and State
requirements. Of the 120 student months in our random sample, 56 had services, totaling
$24,793 ($15,966 Federal share), that were not adequately supported, were provided by
unqualified providers, or both. Based on our sample results, we estimated that the State agency
improperly claimed $1,039,046 ($667,569 Federal share) for Medicaid payments made to the
Portland School Department. These errors occurred because the State agency did not adequately
monitor the claims for Medicaid school-based health services submitted by the Portland School
Department.

                                                i
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $667,569 to the Federal Government,

   •   work with CMS to review Medicaid payments made to the Portland School Department
       after our audit period and refund any overpayments, and

   •   strengthen its oversight of the Maine Medicaid school-based health services program to
       ensure that claims for school-based health services comply with Federal and State
       requirements.

PORTLAND SCHOOL DEPARTMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, the Portland School Department disagreed with our
findings for 27 of the 56 student months that we identified as having one or more school-based
health services that were not reimbursable. In response to the Portland School Department’s
comments, we modified our findings for 13 student months and adjusted our monetary
recommendation accordingly. However, we maintain that the State agency did not always claim
Federal reimbursement for school-based services submitted by the Portland School Department
in accordance with Federal and State requirements.


STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our findings.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                          Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program ........................................................................................1
              Medicaid Coverage of School-Based Health Services ................................1
              Maine Medicaid School-Based Health Services ..........................................1
              Portland School Department ........................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................2
               Methodology ................................................................................................3

FINDING AND RECOMMENDATIONS .......................................................................3

          SCHOOL-BASED SERVICES NOT ADEQUATELY SUPPORTED OR
            PROVIDED BY QUALIFIED PROVIDERS ...................................................4

          IMPROPERLY CLAIMED FEDERAL MEDICAID REIMBURSEMENT ..........5

          INADEQUATE OVERSIGHT AND INCORRECT GUIDANCE.........................5

          RECOMMENDATIONS .........................................................................................5

          PORTLAND SCHOOL DEPARTMENT COMMENTS AND
            OFFICE OF INSPECTOR GENERAL RESPONSE ........................................6

          STATE AGENCY COMMNETS ..........................................................................10

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: PORTLAND SCHOOL DEPARTMENT COMMENTS

          D: STATE AGENCY COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Medicaid Coverage of School-Based Health Services

Section 411(k)(13) of the Medicare Catastrophic Coverage Act of 1988 (P.L. No. 100-360)
amended section 1903(c) of the Act to permit Medicaid payment for medical services provided
to children under the Individuals with Disabilities Education Act (IDEA) (originally enacted as
P.L. No. 91-230 in 1970) through a child’s individualized education plan (IEP).

Federal and State rules require that school-based health services be (1) referred or prescribed by
a physician or another appropriate professional, (2) provided by an individual who meets Federal
qualification requirements, (3) fully documented, (4) actually furnished in order to be billed, and
(5) documented in the child’s IEP.

In August 1997, CMS issued a guide entitled Medicaid and School Health: A Technical
Assistance Guide (technical guide). According to the technical guide, school-based health
services included in a child’s IEP may be covered if all relevant statutory and regulatory
requirements are met. In addition, the technical guide provides that a State may cover services
included in a child’s IEP as long as (1) the services are listed in section 1905(a) of the Act and
are medically necessary; (2) all Federal and State regulations are followed, including those
specifying provider qualifications; and (3) the services are included in the State plan or available
under the Early and Periodic Screening, Diagnostic, and Treatment Medicaid benefit. Covered
services may include, but are not limited to, physical therapy, occupational therapy, speech
pathology/therapy services, psychological counseling, nursing, and transportation services.

Maine Medicaid School-Based Health Services

In Maine, the Department of Health and Human Services, Office of MaineCare (State agency)
administers the Medicaid program. Maine’s Medicaid school-based health services allows
school administrative units (SAU) 1 to receive Federal reimbursement through the State agency
for medically related services provided pursuant to a child’s IEP.



1
    An SAU is a legally organized administrative body responsible for one or more school Departments.

                                                          1
The primary State guidance for administering and operating the school-based health program is
the MaineCare Benefits Manual (State Manual). In order to be eligible for this program, a
student must (1) have an IEP developed by the pupil evaluation team, (2) be at least 5 years of
age and younger than 20 years of age, and (3) be eligible for Medicaid. Covered services under
the Medicaid school-based health services program include both school-based rehabilitation
services and day treatment services.

CMS approved the Maine State Plan, Attachment 4.19-B.13, which establishes the State
agency’s use of monthly bundled rates for school-based rehabilitation services and the use of a
negotiated fee schedule for day treatment services. Accordingly, the State agency uses bundled
rates to reimburse SAUs monthly for school-based rehabilitation services and daily for day
treatment services. The bundled rate for monthly school-based rehabilitation ranges from $75 to
$442 depending on the level of care; this may include speech pathology, occupational therapy,
and transportation services. The bundled rate for day treatment services, which includes
individual and group therapy services, is approximately $51. Students are ineligible to
participate in both programs at the same time.

The State agency reimbursed SAUs for the Federal share of Medicaid expenditures only; the
SAUs were responsible for the State share. 2 The Federal Government pays its share, including
claims for school-based health services, according to a formula established in section 1905(b) of
the Act. That share is known as the Federal medical assistance percentage (FMAP). The FMAP
in Maine ranged from 62.9 percent to 72.4 percent during our audit period.

Portland School Department

The Portland School Department is a public school department located in Portland, Maine. It
operates 18 schools, including 11 elementary schools, 3 middle schools, 3 high schools, and a
specialty school. It is the largest school system in the State, serving more than 7,000 students per
school year. The Portland School Department received more than $3.2 million in Federal
Medicaid reimbursement during our audit period.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for school-based health services submitted by the Portland School Department in
accordance with Federal and State requirements.

Scope

We reviewed Medicaid school-based health services that were submitted by the Portland School
Department and claimed by the State agency for Federal reimbursement on Form CMS-64,
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program. The State

2
  The State’s share of the Medicaid payments consisted of certified public expenditures. These expenditures
represented funds that Portland had provided for school-based services.

                                                         2
agency claimed $5,014,928 ($3,213,813 Federal share) for Medicaid payments made to the
Portland School Department during calendar years 2006 through 2008.

Our objective did not require an understanding or assessment of the complete internal control
structures at the State agency or the Portland School Department. Rather, we limited our review
to those controls that were significant to the objective of our audit. In addition, we did not
review the costs supporting the State agency’s bundled rate because CMS approved of it in the
State plan. We performed our fieldwork at the Portland School Department from July 2011
through August 2012.

Methodology

To accomplish our audit objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance and the CMS-approved State
       plan;

   •   interviewed officials from CMS, the State agency, and the Portland School Department;

   •   obtained a computer-generated file identifying all Medicaid school-based health claims
       submitted by Maine with paid dates from January 1, 2006, through December 31, 2008;

   •   identified 16,359 student months attributed to the Portland School Department,
       containing services totaling $5,014,928 ($3,213,813 Federal share), as described in
       Appendix A;

   •   selected a stratified random sample of 120 of the 16,359 student months (Appendix A);

   •   reviewed medical records and other documentation in order to determine whether each of
       the services provided in the 120 sampled student months was allowable and accurate in
       accordance with Federal and State requirements; and

   •   estimated the overpayments and the Federal share of these overpayments based on our
       sample results (Appendix B).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDING AND RECOMMENDATIONS

The State agency did not always claim Federal Medicaid reimbursement for school-based health
services submitted by the Portland School Department in accordance with Federal and State
requirements. Of the 120 student months in our random sample, 56 had services, totaling

                                               3
$24,793 ($15,966 Federal share), that were not adequately supported, were provided by
unqualified providers, or both.

Based on our sample results, we estimated that the State agency improperly claimed $1,039,046
($667,569 Federal share) for Medicaid payments made to the Portland School Department.

The deficiencies occurred because the State agency did not adequately monitor the claims for
school-based health services submitted by the Portland School Department. Further, the State
agency issued incorrect guidance to the SAUs on Federal requirements pertaining to provider
qualifications.

SCHOOL-BASED SERVICES NOT ADEQUATELY SUPPORTED OR PROVIDED BY
QUALIFIED PROVIDERS

Pursuant to section 1902(a)(27) of the Act, States claiming Federal Medicaid funding must
document services provided. This requirement is reiterated in CMS’s technical guide and the
State Manual; both state that school-based health providers must maintain records documenting
that a related service or evaluation service was provided. Moreover, pursuant to 42 CFR §
455.1(a)(2), States are required to have a method for verifying whether services reimbursed by
Medicaid were actually furnished.

Pursuant to 42 CFR § 440.110, speech, occupational, and physical therapy require a prescription
from a physician or licensed practitioner of the healing arts practicing within his or her scope of
practice as defined in State law. The State Manual requires that speech pathology services must
be provided by either a licensed speech pathologist or a qualified speech pathology assistant
under the supervision of a licensed speech pathologist. In addition, the State Manual also
requires that the student be present and receive covered services in order for the provider to be
reimbursed.

Pursuant to 42 CFR § 225.55, costs must be necessary and reasonable for proper and efficient
performance and administration in order to be allowable under Federal awards. Furthermore,
costs must be consistent with policies, regulations, and procedures that apply to Federal awards.

For 56 of the 120 student months in our sample, the State agency claimed Federal reimbursement
for services provided by the Portland School Department that were not adequately supported or
were provided by unqualified providers. 3 Specifically:

    •   For 45 student months, the State agency claimed Federal reimbursement for services for
        which the documentation did not support that a service was provided. For example, the
        Portland School Department requested reimbursement from the State agency for
        occupational therapy services that were not documented.

    •   For 12 student months, the State agency claimed Federal reimbursement for speech,
        occupational, or physical therapy services that did not meet Federal prescription
3
 The total for the specific examples exceeds 56 because 17 student months contained more than 1 type of
deficiency.

                                                        4
       requirements. For example, the Portland School Department did not provide
       prescriptions signed by a physician or a licensed practitioner of the healing arts for 12
       student months to support the related services.

   •   For 11 student months, the State agency claimed Federal reimbursement for services that
       were provided by unqualified providers. For example, the Portland School Department
       received reimbursement from the State agency for speech services that were not provided
       by or under the supervision of a licensed speech language pathologist.

   •   For 7 student months, the State agency claimed Federal reimbursement for services when
       the students were absent from school. For example, the Portland School Department
       received reimbursement from the State agency for school-based rehabilitative services 3
       months after a student dropped out of school.

IMPROPERLY CLAIMED FEDERAL MEDICAID REIMBURSEMENT

The State agency did not always claim Federal Medicaid reimbursement for school-based health
services submitted by the Portland School Department in accordance with Federal and State
requirements. Of the 120 student months in our random sample, 56 student months had 1 or
more school-based health services, totaling $24,793 ($15,966 Federal share), that were not
reimbursable. Based on our sample results, we estimated that the State agency improperly
claimed $1,039,046 ($667,569 Federal share) for Medicaid payments made to the Portland
School Department.

INADEQUATE OVERSIGHT AND INCORRECT GUIDANCE

The deficiencies occurred because the State agency did not adequately monitor the claims for
school-based health services submitted by the Portland School Department. Furthermore, the
State agency issued incorrect guidance to the SAUs on Federal requirements pertaining to
provider qualifications.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $667,569 to the Federal government,

   •   work with CMS to review Medicaid payments made to the Portland School Department
       after our audit period and refund any overpayments, and

   •   strengthen its oversight of the Maine Medicaid school-based health services program to
       ensure that claims for school-based health services comply with Federal and State
       requirements.




                                                 5
PORTLAND SCHOOL DEPARTMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, the Portland School Department disagreed with our
findings for 27 of the 56 student months that we identified as having one or more school-based
health services that were not reimbursable. In response to the Portland School Department’s
comments, we modified our findings and monetary recommendations for 13 student months.
However, we maintain that the State agency did not always claim Federal reimbursement for
school-based services submitted by the Portland School Department in accordance with Federal
and State requirements.

The Portland School Department comments, excluding 18 attachments totaling 47 pages, are
included as Appendix C. We provided the comments in their entirety to the State agency.

The following is a summary of the Portland School Department comments regarding specific
findings of our report and our response to these comments.

Documentation Requirements Not Met

Portland School Department Comments

The Portland School Department stated that the reimbursement it claimed for school-based
health services provided during 16 student months met Federal and State documentation
requirements for the following reasons:

   •   For 12 student months, the Portland School Department maintained that documentation
       sufficiently fulfilled the State requirement for service records, even though the treatment
       was provided by an educational technician and documented by a licensed social worker.

   •   For 4 student months, the Portland School Department maintained that service records
       prepared by a licensed master social worker were not for counseling services and were
       allowable because they were for the implementation of a “life plan” to achieve specific
       goals relative to specific life issues. Examples of these life issues included diminished
       interest in activities and decreased concentration, rooted in the academic pressures of
       school.

   •   For 1 student month, the Portland School Department maintained that a service record
       provided for a speech service met documentation requirements.

   •   For 1 student month, the Portland School Department maintained that a monthly report
       showing progress relative to behavior goals, including progress documented on a specific
       day by a licensed master social worker, met documentation requirements for a description
       of treatment.


                                                6
   •   For 1 student month, the Portland School Department maintained that a day treatment
       note that does not indicate daily progress met State documentation requirements for a
       description of treatment.

Office of Inspector General Response

We agree in part that reimbursement claimed for services provided during 6 months met Federal
and State requirements, but we disagree that the remaining 10 student months met the
requirements. Specifically:

   •   We disagree that services rendered by one provider but documented by a different
       provider met Federal documentation requirements for Medicaid reimbursement. Federal
       regulations specify that States must keep all necessary documentation to support claimed
       services. Specifically, the documentation must indicate who performed the service. The
       Portland School Department did not provide service records indicating that the claimed
       services were provided by the educational technician.

   •   We agree that the documentation provided by the Portland School Department supported
       that the licensed master social worker was implementing a life plan to achieve specific
       goals relative to specific life issues. We modified our report and adjusted our results to
       reflect this change.

   •   We agree that the documentation provided by the Portland School Department met
       Federal and State requirements for speech service documentation. We modified our
       report and adjusted our results to reflect this change.

   •   We agree that the documentation provided by the Portland School Department met
       Federal and State requirements for service documentation because the licensed master
       social worker’s service record included the signature of the education technician who
       provided the service. We modified our report and adjusted our results to reflect this
       change.

   •   We disagree that the provider’s description of the treatment met State documentation
       requirements. State regulations require that progress notes identify services provided and
       progress toward the achievement of service plan goals.




                                                7
Provider Qualification Requirements Not Met

Portland School Department Comments

The Portland School Department stated that the reimbursement claimed for school-based health
services provided during 13 student months met Federal and State provider qualification
requirements for the following reasons:

   •   For 7 student months, the Portland School Department maintained that a licensed master
       social worker met provider qualifications for the implementation of a life plan to achieve
       specific goals relative to specific life issues. Examples of these life issues included social
       skill development in the areas of peer relationships and self esteem.

   •   For 6 student months, the Portland School Department maintained that reimbursement for
       speech services met requirements because the State agency calculated a reduced rate by
       excluding the cost of speech clinicians.

Office of Inspector General Response

We agree in part that reimbursements claimed for services provided during 7 months met Federal
and State requirements, but we disagree that the remaining 6 student months met the
requirements. Specifically:

   •   We agree that the licensed master social worker met provider qualifications requirements
       for implementation of a life plan to achieve specific goals relative to specific life issues.
       We modified our report and adjusted our results to reflect this change.

   •   We do not agree that using a reduced rate that excludes the cost of speech clinicians is in
       compliance with Federal regulations, as required by 2 CFR 225.55 and 42 CFR 440.110
       (c)(1). Furthermore, speech services rendered by an unsupervised speech clinician were
       the only health service prescribed for these claims. Thus, no other documented costs
       were incurred by the Portland School Department on those days.

Prescription Requirements Not Met

Portland School Department Comments

The Portland School Department stated that the reimbursements claimed for school-based health
services provided during 15 student months met Federal and State prescription requirements for
the following reasons:

   •   For 5 student months, the Portland School Department maintained it met referral
       requirements for services provided by unsupervised speech clinicians because it billed the


                                                 8
       services at a reduced rate calculated by the State agency to exclude the cost of speech
       clinicians.

   •   For 5 student months, the Portland School Department maintained that a pupil evaluation
       team referral based on an IEP met State regulations for an allowable prescription for
       occupational therapy services.

   •   For 4 student months, the Portland School Department maintained that State regulations
       enable a licensed occupational therapist to prescribe occupational therapy services
       provided by a licensed occupational therapist.

   •   For 3 student months, the Portland School Department maintained that a pupil evaluation
       team referral based on an IEP met State regulations for social work services. The
       Portland School Department also indicated that Federal regulations do not require a
       referral for social work services.

   •   For 2 student months, the Portland School Department maintained that State regulations
       enable a licensed physical therapist to prescribe physical therapy services provided by a
       licensed physical therapist.

   •   For 1 student month, the Portland School Department maintained that a pupil evaluation
       team referral based on an IEP met referral requirements for speech services.

Office of Inspector General Response

We agree in part that reimbursement claimed for services provided during 3 student months met
Federal and State requirements, but we disagree that the remaining 12 student months met the
requirements. Specifically

   •   We do not agree that using a reduced rate that excludes the cost of speech clinicians is in
       compliance with Federal regulations, as required by 42 CFR 440.110 (c)(1).

   •   We do not agree that an occupational therapy referral made by a unqualified pupil
       evaluation team member met the Federal requirement for a prescription by a physician or
       licensed practitioner of the healing arts within the scope of his/her practice under Maine
       State Law. Specifically, the Portland School Department did not provide evidence that a
       physician or licensed practitioner of the healing arts was a member of the pupil
       evaluation team.

   •   We do not agree that Maine State regulations provide licensed occupational therapists
       specific authority to prescribe occupational therapy services by an occupational therapist.

                                                9
       Specifically, Maine State statute does not authorize occupational therapists to prescribe
       occupational therapy services.

   •   We agree that a pupil evaluation team referral meets prescription requirements for social
       work and that Federal regulations do not require a prescription for social work services.
       We modified our report and adjusted our results to reflect this change.

   •   We do not agree that Maine State regulations provide licensed physical therapists specific
       authority to prescribe physical therapy services by a physical therapist. Specifically,
       Maine State statute does not authorize physical therapists to prescribe physical therapy
       services.

   •   We do not agree that a speech referral made by an unqualified pupil evaluation team
       member met the Federal requirement for a speech referral by a physician or speech
       language pathologist or audiologist. Specifically, Portland School Department did not
       provide evidence that a physician, speech pathologist, or audiologist was member of the
       pupil evaluation team.

Attendance Requirements Not Met

Portland School Department Comments

The Portland School Department stated that the reimbursement claimed for school-based health
services provided during 1 student month met Federal and State attendance requirements.
Specifically, it stated that the documentation provided demonstrated the student was not absent
on 2 dates of service.

Office of Inspector General Response

We disagree that reimbursements claimed for services provided during 1 student month met
Federal and State requirements. The support documentation provided by the Portland School
Department indicated affirmatively that the student was absent, and no percentage progress was
indicated on the note for days questioned.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our findings. The State
agency’s comments are included in their entirety as Appendix D.




                                               10
APPENDIXES
                                                                                      Page 1 of 2


                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of Medicaid paid claims for school-based rehabilitation and day
treatment services that the Maine Department of Health and Human Services, Office of
MaineCare Services (State agency) reimbursed Portland Public Schools during calendar years
(CY) 2006 through 2008. The State agency requested Federal reimbursement for these claims
and recorded them in its Medicaid Management Information System (MMIS).

SAMPLING FRAME

The sampling frame was two Access database tables with a total of 16,359 student month records
A student month consists of all Medicaid school-based services rendered in a month to a student.
There was one Access table for the rehabilitation services and another table for the day treatment
services. The 16,359 student months contained a total of 52,875 services for which the State
agency was paid a total Federal share of $3,213,813.26.

SAMPLE UNIT

The sample unit was a student month.

SAMPLE DESIGN

Our sample design consisted of a stratified random sample.

                                                                     Federal Share
                                                     Number of
                                                                     Dollar Value
              Stratum          Description            Student
                                                                      of Student
                                                      Months
                                                                        Months
                 1        Rehabilitation Services      13,789        $1,942,325.55
                             Day Treatment
                 2
                                Services                2,570        $1,271,487.71
               Total                                   16,359        $3,213,813.26

SAMPLE SIZE

The sample consisted of 120 beneficiary months with 60 beneficiary months in each stratum.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services (OAS) statistical software.
                                                                                     Page 2 of 2


METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in each stratum. After generating 60 random
numbers for each stratum, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OAS statistical software to estimate the total amount and Federal share of the
overpayments.
                    APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                Sample Results: Total Amounts

                                                                     No. of
                                                                    Student
                                                                     Months           Value of
                                                                      With          Unallowable
             Frame          Value of      Sample       Value of    Unallowable       Services in
Stratum        Size          Frame         Size        Sample       Services          Sample
   1         13,789        $3,021,542        60        $13,226          7              $ 1,078
   2          2,570         1,993,386        60          47,481        49               23,715
 Total       16,359        $5,014,928       120        $60,707         56              $24,793


                            Sample Results: Federal Share Amounts

                                                                     No. of
                                                                    Student            Value of
                            Value of                   Value of      Months          Unallowable
                             Frame                      Sample        With            Services in
             Frame          (Federal      Sample       (Federal    Unallowable         Sample
Stratum        Size          Share)        Size         Share)      Services       (Federal Share)
   1         13,789        $1,942,325        60          $ 8,392        7              $ 684
   2          2,570         1,271,488        60           30,545       49               15,282
 Total       16,359        $3,213,813       120         $38,937        56               $15,966




           Estimated Value of Improperly Claimed Federal Medicaid Reimbursement
                    (Limits Calculated for a 90-Percent Confidence Interval)

                                        Total Amounts              Federal Share

          Point Estimate                  $1,263,544                $ 811,820
          Lower Limit                      1,039,046                  667,569
          Upper Limit                      1,488,042                  956,071
              APPENDIX C: PORTLAND SCHOOL DEPARTMENT COMMENTS 

                                                             Page 1 of 19


                                                                                         I
                                                                                                                               Ac.lministralion
                                                                  -') t,f~..... ,.   1       :r•·.           Emmanuel Caulk, Sup<•rintendent
                                                                                "'····!                   David Galin, ChiefAcaclemit: Q!Jicer
               ·              learning to Succeed                                                     Michae f Wilson, Chief Financ.:iaf q[ficer
                                                                                                      Peter Eglinton, Chief Operutions Ojjic.:er

                                                                                                     !96 Allen Avcnut!, Portland, Maine 04103
                                                                                                                                (207} 874-81 00

 December 19,2012


 Michael Annsrrong 

 Regional Inspector General for Audit Services 

 Department of Health and Human Services 

 Office of Inspector General, Olftcc of Audit Services 

 John F. Kennedy Federal Building, Room 2425 

 Boston, MA 02203 


 Re: A-Ql-1 1-00011

 Dear Mr. Armstrong:

The U.S. Department of Health and Human Services, Onice ol'lnspcctor Gcnernl (OIG), issued Lo thl.l Porttand School Dcpurtmcnt
a draft report entitled Maine Improperly Claimed Medicaid Paymenls ofSchooi-/Jused /-leallh Services Submilled by Portland
School Department by letter dated November 5, 2012. With the consent orOIG, the deadline to respond to the drall report was
extended until December 21, 2012.

The enclosed submissions represent tile Portland School Department's response to the drali report based on all inlorm.-dion
currently available. Attachment A, compiled by the l'ortland School Departmen t, responds to factual issues relating to individual
students and student IEPs. Attachment B, drafted by legal counsel at                           in Portland, Maine, mldrcsscs provider
qualifications and the scope of provider authority under Maine law. In the interest of ctlicicncy, the factual submission cross­
references the legal submission where uppropriate, thereby providing both a legal and factual basis for contesting disallowance of
particular claims.

We appreciate the opp011unily to respond to OIG's preliminary findings . Please do not hcsitntc to contact me or our counsel at
. . . . . . . . . . . . . . with additional questions.




~
Emmanuel Caulk
Superintendent of Schools
l'01tland School Department


Enclosures
                                                                                                 Page 2 of 19
'

                                                   ATTACHMENT A



      December 21, 2012 


      Michael Armstrong 

      Regional Inspector General for Audit Services 

      Department of Health and Human Services 

      Office of Inspector General, Office of Audit Services 

      John F. Kennedy Federal Building, Room 2425 

      Boston, MA 02203 


      Re: A-Q1-11-00011 


      Dear Mr. Armstrong, 


      Thank you for your preliminary audit findings reviewed at a meeti~g at the offices of the Portland School 

      District on September 12, 2012. We appreciate the opportunity to respond to these preliminary findings. 


      School Based Rehabilitative Services 


      Students' Background, SB Samp les 29, 23, 36, 31, 2, 25: 


                       November 2007 SB Sam le #29

      Pursuant t o - IEP,                      required Speech and language Services as defined by Section
      104.04.C of the MaineCare Benefits Manual.       Since the speech language pathologist did not meet the
     credentialing requirements of Section 104.07-2 .G, a "reduced rate" claim was submitted as allowed
     pursuant to Section 104.08.

               October 2007, SBSam ple #23

     Pursuant to .IEP,.required Speech and Language Services as defined by Section 104.04.C of the
     MaineCare Benefits Manual.       Since the speech language pathologist did not meet the credentialing
     requirements of Section 104.07-2.G, a "reduced rate" claim was submitted as allowed pursuant to
     Section 104.08.




     Pursuant to - I E P , - required Speech and Language Services as defined by Section 104.04.C,
     Occupational Therapy Services as defined by Section 104.04.G and Physical Therapy Services as defined
     by Section 1Q4.04.H of the MaineCare Benefits Manual. Since the speech language pathologist did not
     meet the credentialing requirements of Section 104.07-2.G, a "reduced rate" claim was submitted as
     allowed pursuant to Section 104.08.

                       May 2007, SB Sample #31

     Pursuant to         IEP        required Speech and Language Services as defined by Section 104.04.C of
     t he M aineCare Benefits Manual. Since the speech language pathologist did not meet the crede ntialing

                                                           1

                                                                                          Page 3 of 19


                                                ATIACHMENT A 


 requirements of Section 104.07-2.G, a "reduced rate" claim was submitted as allowed pursuant to
 Section 104.08.

               April ;2008, SB Sample #2

 Pursuant to-IEP, .required Speech and language Services as defined by Section 104 .04.C of the
 MaineCare Benefits Manual. Since the speech language pathologist did not meet the credentialing
 requirements of Section 104.07-2.G, a "reduced rate" claim was submitted as allowed pursuant to
 Section 104.08.




 Pursuant to               IEP, -required Speech iltld langu<Jgc Services as defined by Section
 104.04.C of the MaineCare Benefits Manual. Since the speech language pathologist did not meet the
 credentialing requirements of Section 104.07-2.G, a "reduced rate" claim was submitted as allowed
 pursuant to Section 104.08.

Discussion, SB Samples 29, 23, 36, 31, 2, 25:

 Under the bundled rate methodology, when speech was ordered in a child's IEP and delivered by an
 unqualified speech practitioner, a separate rate structure was developed that essentially "deducted" the
costs associated with the delivery of speech services. As a result, the monthly bundled rate utilized in
the SB samples did not include cost reimbursement for the speech services, therefore not requiring a
school district to document or produce the qualifying credentials for a speech pathologist or a speech
referral.   This "reduced rate" claim for the monthly bundled rate is described in Section 104.08 of
MaineCare Benefits Manual Chapter II as in effect during the period of the audit: " ...A separate rate has
been calculated to allow for reimbursement excluding speech-language pathology services when those
services are provided by an individual not listed in 104.07-2...." 10-144"101 ME. CODER.§ 104.08 (2006) .
. The "reduced rate" component was introduced in a memorandum issued by the Maine Department of
Health and Human Services on September 16, 1998. We have attached a copy of the memo for your
reference at Appendix A.

In a follow-up memo issued by the Department of Health and Human Services dated DecemberS, 1998,
school districts were provided notice that the bundled rate would be reformed to account for situations
where school districts continued to utilize speech clinicians (not qualified under the Medicaid
regulations) to deliver speech services as ordered in a child's IEP: "Therefore, the Department of Human
Services will be promulgating amendments to the Medicaid policy for School Based Rehabilitation
Services to exclude speech clinicians from the list of allowed service providers to be billed under this
policy. In addition, this rule will include a new set of codes which pay a reduced rate due to excluding
reimbursement for speech-language services. This will allow schools which choose to continue utilizing
speech clinicians to continue billing under the School Based Rehab Services policy, while excluding the
costs associa t ed with those practitioners." We have attached a copy of the memo for your reference at
Appendix B.




                                                     2
                                                                                             Page 4 of 19


                                             AITACHMENT A 


 As such, we do not believe that these samples shou ld fall into the category of a disallowance
 recommendation, but rather into the category of a "no opinion" because the service was provided and
 billed within the boundaries of the uundled rate methodology permitted in Maine.

 In addition, in regards to SB Sample# 36, we do not agree that OT and PT were not properly ordered by
 a licensed practitioner of the healing arts within the scope of practice of Maine law. In regards to
 Physical Therapy, "[t]he practice of physical therapy includes the evaluiltion, treatment and instruction
 of human beings to detect, assess, prevent, correct alleviate and limit physical disability, bodily
 malfunction and pain from injury, disease and other bod ily condition; the administration, interpretation
 and evaluation of tests and measurements of bodily functions and structures for the pltrpose of
 treatment planning; the planning, administration, evaluation and modification of treatment and
 instruction; and the use of physical agents and procedures, activities and devices for preventative and
 therapeutic purposes; and the provision of consultative, educational and other advisory services for the
 purpose of reducing the incidence and severity of physical disability, bodily malfunction and pain." 32
 M .R.S. §3111-A. We submit that the scope of practice, particularly with the utilization of words like
" ...the planning, administration, evaluation and modification of treatment..." provides a licensed Physical
Therapist with the statutory authority to prescribe physical therapy as a licensed practitioner of the
healing arts, pursuant to Section 104.04.H. In addition, the Physicallherapy Practice Act also states by
implication that a Physical Therapist has the authority to provide Physical Therapy services " ...without
referral from a doctor..." subject to certain limitations. 32 M.R.S. §3113-A.

We therefore do not agree that a disallowance is required because a prescription was provided by a
Physical Therapist.

In regards to Occupational Therapy, '"Occupational Therapy' means the assessment, planning and
implementat ion of a program of purposeful activities to develop or maintain adaptive skills necessary to
achieve the maximal physical and mental functioning of the individual in the individual's daily pursuits.
The practice of 'occupational therapy' includes, but is not limited to, assessment and treatment of
individuals whose abilities to cope with the tasks of living are threatened or impaired by developmental
deficits, the aging process, learning disabilities, poverty and cultural differences, physical injury or
disease, psychological and social disabilities or anticipated dysfunction ....''   32 M.R.S. §2272.12. We
submit that the scope of practice, particularly with the utilization of words like "...assessm0nt, planning
and implementation of a program ..." provides a licensed Occupational Therapist with the statutory
authority to prescribe Occupational Therapy services pursuant to Section 104.04.G. We therefore do not
agree that a disallowance is required.




We agree that since this child did not have an IEP in effect for the month of June, a monthly claim should
not have been submitted.

Day Treatment




                                                     3
                                                                                               Page 5 of 19


                                              ATTACHMENT A 


 In regards to the disallowance recommendat ions for 6/6 and 6/8, we disagree that no documentation
 provided demonstrated receipt of services on those days.              We provided treatment notes that
 documented treatment on 6/6 and 6/ 8 relative to specific Day Treatment Goals. We submit that this
 documentation fulfills the requirement of Section 41.07-4.G and K whereby a description of treatment,
 counseling or follow-up care was provided because it describes treatme nt related outcomes, even if the
 treatment was provided by an Educational Technician and documented by a Licensed Clinical Social
 Worker. Attached please find that documentation <It Appendix C.




 In regards to the disallowance recomme ndations for all dates in December except for 12/ 5, 12/19 <~nd
 12/22, we agree that no documentation provided demonstrated receipt of services on those days.
 Should we uncover additio nal documentation in this regard, it will be provided.




We d isagree that on the dates that the Licensed Master Social Worker provided cou nseling serv ices, the
 Licensed Master Social Worker provided services outside of t he scope of the Maine Practice /\ct. The
Maine Unified Special Education Regulations define counseling as " ...services provided by qualified social
workers, psychologists, or other qua lified personnel." 05-071-101 Me. Code R. §XI (2008) . As defined
in the Social Workers Practice Act, "'Social work' means engaging in psychosocia l evaluation and
intervention . . . to effect a change in the feelings, attitudes and behavior of a client, whether an
individual, group or community. 'Social work' al$0 means engaging in com munity organization , social
plann ing, administration and research." 32 M .R.S. §7001-A (11) . Within the allowed functions of a
Licensed Master Social Worker, the Social Worker Practice Act makes it clear that " ... [a]ny lice nsed
master social worker may:...[p]erform all of the functions of a licensed social worker ...."(3 2 M .R.S.
§7053-A(l)(B)) " ... A licensed social worker may ...conduct basic data gathering of reco rds and specific
life issues of individuals, groups and families, assess this data and formulate and impleme nt a plan to
achieve specific goals relative to specific life issues." 32 M.R.S. §7053-A(4)(A). In the case of this student,
the services provided were within the boundaries of the scope of practice of this Licensed Master Social
Worker because the services were meant to implement a plan to achieve specific goals rel ative to
specific life issues. Specifically, this child's IEP indicated that he needed the support of Day Treatment
Services relative to social skill development in the areas of peer relationships and self est eem, as well as
interventions that allowed him to manage frustration and sustain focus and attention.

The Licensed Master Social Worker provided services with the scope authorized by the Social Worker
Practice Act. We therefore do not agree that a disallowance is required.

We agree that                         not a qualified speech provider, and did not provide services under
the direction of a properly qualified speech provider on 12/4, 12/5, 12/7, 12/11, 12/12, 12/14, 12/18,
12/19 and 12/21. We therefore agree that a disallowance is required on these dates.




In regards to the disallowance recommendations for 10/11, 10/16, 10/18, 10/24 and 10/30, we disagree
that no documentation provided demonstrat ed receipt of services o n those days .               We provided
                                                      4
                                                                                                Page 6 of 19


                                               AITACHMENT A 


 treatment notes that documented treatment on 10/11, 10/16, 10/18, 10/24 and 10/30 relative to
 specific Day Treatment Goals. We submit that this documentation fu lfills the requirement of Section
 41.07-4.G and K whereby a description of treatment, counseling or follow-up care was provided because
 it describes treatment related outcomes, even if the treatment was provided I.Jy an Educational
 Technician and documented by a Licensed Clinical Social Worker.                  Attached please find that
 documentation at Appendix D.        In regards to the disallowance recommendation for 10/25, we agree
 that no documentation provided demonstrated receipt of service on that day. Should we uncover
 additional documentation in this regard, it will be provided.

                                         #5

 In regards to the .disallowance recommendations for 10/2, 10/5, 10/9, 10/16, 10/23, 10/26 and 10/30
· relative to the Licensed Master Social Worker providing counseling service!>, we disagree that the
 counseling services were pr'ovided outside of the scope of the Maine Practice Act. The Maine Unified
 Special Education Regulations define counseling as " ...services provided by qualified social workers,
 psychologists, or other qualified personnel." 05-071-101 Me. Code R. § XI (2008) . As defined in the
 Social Workers Practice Act, "'Social work' means engaging in psychosocial evaluation and intervention .
 • • to effect a change in the feelings, attitudes and behavior of a client, whether an individual, group or
 community.       'Social work' also means engaging in community organization, social planning,
 administration and research." 32 M.R.S. §7001-A (11).           Within the allowed functions of a l.icensed
 Master Social Worker, the Social Worker Practice Act makes it clear that " ...[a]ny licensed master social
 worker may: ... [p]erform all of the functions of a licensed social worker... ."(32 M .R.S. §7053-A(1)(B)} "...
A licensed social worker may ...conduct basic data gathering of records and specific life issues of
individuals, groups and families, assess this data and formulate and implement a plan to achieve specif'ic
goals relative to specific life issues." 32 M.R.S. §7053-A(4)(A). In the case of this student, the services
provided were within the boundaries of the scope of practice of this Licensed Master Social Worker
because the services were meant to implement a plan to achieve specific goals relative to specific life
issues . Specifically, this child's IEP indicated that he needed the support of Day Treatment Services
relative to struggles with depressed mood, diminished interest in activities, decreased concentration;
suicidal ideation and hopelessness, which were apparently rooted in the academic pressures of school

The licensed Master Social Worker provided services within the scope of the Maine Practice Act, and we
therefore disagreethat a disallowance is required.

In regards to the disallowance recommendations for 10/3, 10/17, 10/24 and 10/31, we disagree that no
documentation provided demonstrated receipt of services on those days. We provided treatment notes
that documented treatment onl0/3, 10/17, 10/24 and 10/31 relative to specific Day Treatment Goals.
We submit that lhis documentation fulfills the requirement of Section 41.07-4.G and K whereby a
description of treatment, counseling or follow-up care was provided because it describes treatment
related outcomes, even if the treatment was provided by an Educational Technician and documented by
a Licensed Master Social Worker. Attached please find that documentation at Appendix E.




                                                       5
                                                                                           Page 7 of 19


                                             ATIACHMENTA 


 We agree that this child was marked absent on the Day Treatment Service delivery log on 9/11 and
 therefore agree with the disallowance recommendation.

                 May 2006, DT #9

 We agree that even though Occupational Therapy was documented as delivered on 5/19, OT was not
 ordered in the child ' s IEP, and therefore a disallowance recommendation on that date is appropriate. As
 to the balance of the disallowance recommendations for all of the other days of the month, we agree
 that no documentation provided demonstrated receipt of services on those days. Should we uncover
 additional documentation in this regard, it will be provided.




 In regards to the disallowance recommendations for 6/1, 6/6, 6/7, 6/8, 6/12, 6/13 and 6/14, we agree
 that no documentation provided demonstrated receipt of services on those days. Should we uncover
 additional documentation in this regard, it will be provided.




 In regards to the disallowance recommendations for 12/19 and 12/21, we agree that the service delivery
log is a more accurate reflectio n of attendance and the disallowance recommendation on these two
days is appropriate.




We disagree with the disallowance recommendations for 6/2 and 6/5 because of the finding th<1t a
properly licensed Occupational Therapist does not have the authority to recommend OT services.
"'Occupational Therapy' means the assessment, planning and implementation of a program of
purposeful activities to develop or maintain adaptive skills necessary to achieve the maxim<ll physical
and mental functioning of the individual in the individual's daily pursuits. The practice of 'occupational
therapy" includes, but is not limited to, assessment and treatment of individuals whose abilities to cope
with the tasks of living are threatened or impaired by developmental deficits, the aging process, learning
disabilities, poverty and cultural differences, physical injury or disease, psychological and social
disabilities or anticipated dysfunction...." 32 M.R.S. §2272.12. We submit that the scope of pri.lctice,
particularly with the utilization of words like " ...assessment, planning and implementation of a program
..." provides a licensed Occupational Therapist with the statutory authority to prescribe Occupational
Therapy services. We therefore do not agree that a disallowance is required.

In addition, for Day Treatment Services, of which OT is included as a reimbursable service, the
regulations only required a referral by the Pupil Evaluation Team (now known as the Individualized
Education Program Team} based on the development of an Individual Educatio n Plan. 10-144-101 ME.
CODE R: §41.02.B.2 (2006).    In this case, we provided access to the child's IEP during the audit which
formed the basis of the referralfrom the team for Day Treatment Services.




                                                     6
                                                                                                Page 8 of 19


                                              AlTACHMENT A

 In regards to the disallowance recommenda tions for 6/1, 6/7, 6/8, 6/9 and 6/12, we agree that no
 documentation provided demonstrated receipt of services on those days. Should we uncover odditional
 documentation in this regard, it will be provided.




 In regards to the disallowance recommendations for 10/3, 10/5, 10/10, 10/12, 10/16, 10/18, 10/19,
 10/23, 10/26 and 10/30 we agree that no documentation provided demonstrated receipt of service~ on
 those days. Should we uncover additional documentation in this regard, it will be provided.

 In regard.s to the disallowance recommendations for 10/3, 10/10, 10/16 and 10/30, because the
psychologist did not sign the documentation, we agree that the disallow<~nce is appropriate.




We do not agree that this child was marked absent on 1/4 and 1/24.                  Attached please find his
attendance report at Appendix F.

In regards to the disallowance recommendations for 1/3, 1/8, 1/10, 1/15, l/17, 1/22 and 1/29 relative
to the Licensed Master Social Worker providing counseline services, we disagree thot counseling
services were provided outside of the Scope of the Maine Practice Act. The Maine Unified S1Jecial
Education Regulations define counseling as " ...services provided by qualified social workers,
psychologists, or other qualified personnel." 05-071-101 Me. Code R. § XI (2008) .          As defined in the
Social Workers Practice Act, "'Social work' means engaging in psychosocial evaluation and intervention,
including therapy, to the extent permitted by the licensure provisions of this chapter, to effect a change
in the feelings, attitudes and behavior of a client, whether an individual, group or community. 'Social
work' also means engaging in community organization, social planning, administration and research ." 32
M.R.S. §7001-A (11).     Within the allowed functions of a Licensed Master Social Worker, the Social
Worker Practice Act makes it clear that " ... [a]ny licensed master social worker rnay: ... [p]erform all of the
functions of a licensed social worker...."32 M.R.S. §7053-A( 1)(B).           " ... A licensed social worker
may... conduct basic data gathering of records and specific life issues of individuals, groups and families,
assess this data and formulate and implement a plan to achieve specific goals relative to specific life
issues." 32 M.R.S. §7053-A(4)(A). In the case of this student, the services provided were within the
boundaries of the scope of practice of this Licensed Master Social Worker because the services were
meant to implement a plan to achieve specific goals relative to specific life issues. Specifically, this
child's IEP indicated that he needed the support of Day Treatment Services relative to difficulty with
elements of depression, chronic anger, violent behavior and oppositional behavior.               The Licensed
Master Social Worker provided services within the scope of the Maine Practice Act, and we therefore do
not agree that a disallowance is required.

In regards to the disallowance recomm endations for 1/9, 1/11, 1/16, 1/18, 1/23 and 1/30 we disagree
that no documentation provided demonstrated receipt of services on those days.                   We provided
treatment notes that documented treatment on 1/9, 1/11, 1/16, 1/18, 1/23 and 1/30 relative to specific
Day Treatment Goals. We submit that this documentation fulfills the requirement of Section 41.07-4.G
and K whereby a description of treatment, counseling or follow-up care was provided because it

                                                       7
                                                                                            Page 9 of 19


                                              ATTACHMENT A

 describes treatment re lated outcomes, even if the treatment was provided by an Educational Technician
 and documented by a Licensed Master Social Worker. Attached please find that documentation at
 Appendix F.




 ln regards to the disallowance recommendations for 10/1, 10/6, 10/8, 10/15, 10/20, 10/22, 10/27 and
 10/29, we disagree that no documentation provided demonstraled receipt of services on those days.
 We provided treatmeJlt notes that documented treatment on 10/1, 10/G, 10/8, 10/15, 10/20, 10/22,
 10/27 and 10/29 relative to specific Day Treatment Goals. We submit that this documentation fulfills
 the requirement of Section 41.07-4.G and K whereby a description of treatment, counseling or follow-up
 care was provided because it describes treatment related outcomes, even if the treatment was provided
 by an Educational Technician and documented by a Licensed Clinical Social Worker. 1\ttached please
 find that documentation at Appendix G.




We agree that this child was marked absent on the service delivery log on 12/7 and therefore a
disallowance is appropriate.




In regard s to the disa llowance re commendations for 2/2, 2/3, 2/7, 2/9, 2/10, 2/14, 2/16, 2/17 and 2/28,
we agree that no documentation provided demonstrated receipt of services on those days. Should we
uncover additional documentation in this regard, it will be provided.




We do not agree that OT and PT were not properly ordered by a licensed practitioner of the healing arts
within the scope of practice of Maine law for OT and PT services on 9/17, 9/21, 9/25 and 9/28. In
regards to Physical Therapy, "[t]he practice of physical therapy includes the evaluation, treatment and
instruction of human beings to detect, assess, prevent, correct alleviate and limit physical disability,
bodily ma lfunction and pain from injury, disease and other bodily condition; the administration,
interpretation and evaluation of tests and measurem'ents of bodi ly functions and structures for the
purpose of treatment planning; the planning, administration, evaluation and modification of treatment
and instruction; and the use of physical agents and procedures, activities and devices for preventative
and therapeutic purposes; and the provision of consultative, educational and other advisol)r services for
the purpose of reducing the incidence and severity of physical disability, bodily malfunction and pain."
32 M.R.S. §3111-A. We submit that the scope of practice, particularly with the utilization of words like
" ...the planning, administration, evaluation and modification of treatment..."       provides a licensed
Physical Therapist with the statutory authority to prescribe physical therapy as a licensed practitioner of
the healing arts, pursuant to Section 104.04.H. In addition, the Physical Therapy Practice Act also states
by implication that a Physical Therapist has the authority to provide Physical Therapy services " ...without
referral from a doctor..." subject to certain limitations. 32 M.R.S. §3113-A.

We therefore do not agree that a disallowance is required.

                                                      8
                                                                                            Page 10 of 19


                                              ATTACHMENT A 




 In regards to Occupational Therapy, "'Occupational Therapy' means the assessment, planning and
 implementation of a program of purposeful activit ies to develop or maintai n adaptive skills necessary to
 achieve the maximal physical and mental functioning of the individual in the individual's daily pursuits.
 The practice of 'occupational therapy' includes, but is not limited to, assessment and treatment of
 individuals whose abilities to cope with the tasks of Jiving are threatened or impaired by developmental
 deficits, the aging process, learning disabilities, poverty and cultural differences, physical injury or
 disease, psychological and social disabilities or anticipated dysfunction ...."   32 M.R.S. §2272 .12. We
 submit that the scope of practice, particularly with the utilization of words like " ...assessment, planning
 and implementation of a program ..." provides a licensed Occupationa l Therapist with the statutory
 authority to prescribe Occupational Therapy services pursuant to Section 104.04.6.

 We therefore do not agree that a disallowance is required.

 Further, Day Treatment Services, of which OT is a covered service, were recommended by a licensed
 psychologist. Please see attached documentation of that referral and appropriate licensure at Appendix
 P. Additionally, for Day Treatment Services, t he regulations only required a referral by the Pupil
Evaluation Team (now known as the Ind ividualized Education Program Team) based on the development
of an Individual Education Plan. 10-144-101 ME. CooE R. §41.02.8.2 (2006).         In this case, we provided
access to the child' s IEP during the audit which formed the basis of the referral from the team for Day
Treatment Serv ices.

In regards to the disallowance recomme ndations for 9/6, 9/7, 9/10, 9/11, 9/12, 9/13, 9/14, 9/18, 9/19,
9/24, 9/26 and 9/27, we agree that no documentation provided demonstrated receipt of services on
those days. Shou ld we uncover additional documentation in this regard, it will be provided.




In regards to the disallowance recommendations for 4/2 through 4/30, we agree that no documentation
provided demonstrated receipt of services on those days. Should we uncover additional documentation
in this regard, it will be provided.




We disagree that there was no referral by a qualifying provider for social work services. The regulations
only required a referral by the Pupil Evaluation Team (now known as the Individualized Education
Program Team) based on the development of an Individual Education Plan. 10-144-101 ME. CODE R.
§41.02.8.2 (2006}. In this case, we provided access to the child's IEP during the audit which formed the
basis of the referral from the team for Day Treatment Services. In addition, the federal regulatio ns do
not require a referral for social work services.




We disagree with the disallowance recommendations for 6/5 because of the finding that a properly
licensed Occupational Therapist does not have the authority to recommend OT services.

                                                      9
                                                                                            Page 11 of 19


                                             ATTACHMENT A 


 In regards to Occupational Therapy, "'Occupational Therapy' means the assessment, planning and
 implementation of a program of purposeful activities to develop or maintain adaptive skills necessary to
 achieve the maximal physical and mental functioning of the individual in the individual's daily pursuits.
 The practice of 'occupational therapy' includes, but is not limited to, assessment and treatment of
 individuals whose abilities to cope with the tasks of living are threatened or impaired by developmental
 deficits, the aging process, learning disabilities, poverty and cultural differences, physical injury or
 disease, psychological and social disabilities or anticipated dysfunction ...."   32 M.R.S. §2272.12. We
 submit that the scope of practice, particularly with the utilization of words like " ...assessment, planning
 and implementation of a program ..." provides a licensed Occupational Therapist w ith the statutory
 authority to prescribe Occupationa l Therapy services pursuant to Section 104.04.G. We therefore do not
 agree that a disallowance is required.

Additionally, the regulations only required a referral by the Pupil Evaluation Team (now known as the
 Individualized Education Program Team) based on the development of an Individual Educati on Plan . 10­
 144-101 ME. CODER. §41.02.8.2 (2006). In this case, we provided access to the child's IEP during the
audit which formed the basis of the referral from the team fo r Day Treatment Services.

In regards to the disallowance recommendations for 6/1, 6/4, 6/7, 6/8 •. 6/11, 6/12, 6/13 and 6/14, we
agree that no documentation provided demonstrated receipt of services on those days. Should we
uncover additional documentation in this regard, it will be provided.




In regards to the disallowance recommendations for 9/7, 9/8, 9/11, 9/12, 9/13, 9/14, 9/15, 9/19, 9/22,
9/26 and 9/29, we agree that no documentation provided demonstrated receipt of service s on those
days·. Should we uncover additional documentation in this regard, it will be provided .




We agree that this child was marked absent on the service delivery logs on 3/23 and 3/26, and therefore
a disallowance is appropriate.




In regards to the disallowance recomm enda tions for all of the claimed days in March 2007, we agree
that no documentation provided demonstrated receipt of services on those days. Should we uncover
additional documentation in this regard, it will be provided.

                                     #26

In regards to the disallowance recomme ndations for 12/4, 12/6, 12/8, 12/11, 12/14, 12/15, 12/18,
12/19 and 12/22, we agree that no documentation provided demonstrated receipt of services on those
days. Should we uncover additional documentation in this regard, it will be provided.




                                                     10
                                                                                          Page 12 ofl9


                                              ATIACHMENTA 


 We disagree that there was no appropriate referral for speech service!> on 10/Si 10/12 and 10/19. The
 regulations only required a referral by the Pupil Evaluation Team (11ow known as the Individualized
 Education Program Team) based on the development of an Individual Education Plan. 10-144-101 ME.
 CODER. §41.02.B.2 (2006). In this case, we provided access to the child's IEP during the audit which
 formed the basis of the referral from the team for Day Treatment Services. We agree that speech was
 provided by an unqualified, unsupervised provider on 10/5, 10/12 and 10/19.     In regards to the
 disallowance recommendat ions for 10/2, 10/3, 10/4, 10/6, 10/10, 10/l.l, 10/13, 10/16, 10/17,·10/18,
 10/20, 10/23, 10/24, 10/25, 10/26, 10/27,10/30 and 10/31, we agree that no documentation provided
 demonstrated receipt of services on those days. Should we uncover additional documentation in this
 regard, it will be provided.




 In regards to the disallowance recommendat ions for all of the claimed days in November 2006, we agree
that no documentation provided demonstrated receipt of serv ices on those days. Should we uncover
additional documentation in this regard, it will be provided.




In regards to the disallowance recommendations for 4/1, 4/2, 4/3, 4/4, 4/7, 4/9, 4/10, 4/11, 4/16, 4/17,
4/18 and 4/30, we agree that no documentation provided demonstrated receipt of services on those
days . Should we uncover additional d~cumentation in this regard, it will be provided.




We disagree t hat there was no referral by a qualifying provider for social work services. The regulations
only required a referral by the Pupil Evaluation T~am (now known as the Individualized Education
Program Team) based on the development of an Individual Education Plan. 10-]44-101 ME. CODER.
§41.02.8.2 (2006). In this case, we provided access to the child's JEP during the audit which formed the
basis of the referral from the team for Day Treatment Services. In addition, the federal regulations do
not require a referral for social work services.

In regards to the disallowance recommendations for all of the claimed days in September 2007, we
disagree that no documentation provided demonstrated receipt of services on some of the claimed
days. We provided treatment notes that documented treatment on 9/10, 9/11, 9/12, 9/13, 9/14, 9/17,
9/18, 9/19, 9/20, 9/21, 9/24, 9/25, 9/26, 9/27 and 9/28 relative to specific Day Treatment Goals. We
submit that this documentation fulfills the requirement of Section 41.07-4.G and K whereby a
description of treatment, counseling or follow-up care was provided because it describes treatment
related outcomes, even if the treatment was provided by an Educational Technician and documented by
a Licensed Master Social Worker. Attached please find that documentatio n at Appendix H.




We disagree that there was no referral by a qualifying provider for social work services on 12/4, 12/7,
12/11, 12/14, 12/18 and 12/l1. The regulations only required a referral by the Pupil Evaluation Team
(now known as the Individualized Education Program Team} based on the development of an Individua l

                                                    11
                                                                                               Page 13 ofl9


                                              ATTACHMENT A

 Education Plan. 10-144-101 ME. CODER. §41.02.B.2 (2006). In this case, we provided access to the
 child's IEP during the audit which formed the basis of the referral from the team for Day Treatment
 Services. In addition, the federal regulations do not require a referral for social worl< services.

 In regards to the disallowance recommendations for 12/5, 12/12 and 12/19, we disagree that no
 documentation provided demonstrated receipt of services on those days. We provided treatment notes
 that documented treatment on 12/5, 12/12 and 12/19 relative to specific Day Treatment Goals. We
 submit that this documentation fulfills the requirement of Section 41.07-4.G and I< whereby a
 description of treatment, counseling or follow-up care was provided because it describes treatment
 related outcomes, even if the treatment was provided by an Educational Technician and documented by
 a licensed Master Socia l Worker . Attached please find that documentation at Appendix I.




 In regards to the disallowance recommendations for 5/22, 5/23, 5/29 and 5/30, we agree that no
 documentation provided demonstrated receipt of services on those days. Should we uncover additional
 documentation in this regard, it will be provided. We disagree that documentation provided did not
demonstrate the receipt of a service on 5/31. Attached is that documentation at Appendix J




In regards to the disallowance recommendations for 2/1, 2/2, 2/6, 2/7, 2/8, 2/9, 2/13, 2/15, 2/16, 2/26,
2/27 and 2/28, we agree that no documentation provided demonstrated receipt of services on those
days. Should we uncover additional documentation in this regard, it will be provided.




In regards to the disallowance recommendations for 5/4, 5/11, 5/18, 5/25 and 5/31 relative to the
Licensed Master Social Worker providing counseling services, we disagree that counseling services were
provided outside of the Scope of the Maine Practice Act.              The Maine Unified Special Education
Regulations define counseling as " ...services provided by qualified social workers, psychologists, or other
qualified personneL" 05-071-101 Me. CodeR.§ XI (2008}. As defined in the Social Workers Practice Act,
'"Social work' means engaging in psychosocial evaluation and intervention ... to effect a change in the
feelings, attitudes and behavior of a cfient, whether an individual, group or community. 'Social work'
also means engaging in community organization, social planning, administration and research." 32
M.R.S. §7001-A (11).       Within the allowed functions of a Licensed Master Social Worker, the Social
Worker Practice Act makes it clear that " ... [a]ny licensed master social worker may: ... (p]erform ali of the
functions of a licensed social worker....''(32 M.R.S. §7053-A(l)(B))           " ... A licensed social worker
may...conduct basic data gathering of records and specific life issues of individuals, groups and families,
assess this data and formulate and implement a plan to achieve specific goals relative to specific life
issues." 32 M.R.S. §7053-A(4)(A). In the case of this student, the services provided were within the
boundaries of the scope of practice of this Licensed Master Social Worker because the services were
meant to implement a plan to achieve specific goals relative to specific life issues.         Specifically, this
child's IEP indicated that he needed the support of Day Treatment Services relative to difficulty with



                                                      12
                                                                                         Page 14 ofl9


                                            ATTACHMENT A 


 anxiety and disruptions in the school setting due to oppositional behavior. The IEP also indicated a need
 for routines and rules in regards to daily living and community integration.

 The licensed Master Social Worker provided services within the scope of the Maine Practice Act, and we
 therefore disagree that a disallowance is required.

 In regards to the disallowance recommendations for 5/1, 5/2, 5/7, 5/8, 5/9, 5/14, 5/15, 5/16, 5/21,
 5/22, 5/23, 5/29 and 5/30, we disaeree that no documentation provided demonstrated receipt of
 services on those days. We prov ided treatment notes that documented treatment on 5/1, 5/2, 5/7,_5/8,
 5/9, 5/14, 5/15, 5/16, 5/21, 5/22, 5/23, 5/29 and 5/30 relative to specific Day Tredtment Goals. We
 submit that this documentation fulfills the requirement of Section 41.07-4.G and Kwhereby a
 description of treatment, counseling or follow-up care was provided because it describes treatment
 related outcomes, even if the treatment was provided by ar1Educational Technician and documented by
 a Licensed Master Social Worker. Attached please find that documentation at Appendix K.

                                   7

In regards to the disallowance recommendations for 3/1, 3/7, 3/8, 3/9, 3/14, 3/15, 3/16, 3/21, 3/22,
3/23, 3/28, 3/29 and 3/30, we agree that no documentation provided demonstrated receipt of services
on those days. Should we uncover additional documentation in this regard, it will be provided.



In regards to the disallowance recommendations for 3/1, 3/3, 3/6, 3/7, 3/9, 3/10, 3/13, 3/14, 3/15,
3/16, 3/17, 3/20, 3/21, 3/23, 3/24, 3/27, 3/28, 3/29 and 3/31, we agree that no documentation
provided demonstrated receipt of services on those days. Should we uncover additional documentation
in this regard, it will be provided.



In regards to the disallowance recommendation for 10/2, we disagree that no documentation provided
demonstrated receipt of services on this day. We have provided a monthly report of progress for
October 2006 that shows that this child was making progress relative to behavior goals, including
progress documented on October 2 by a Licensed Master Social Worker. We have provided this
documentation at Appendix Q.



We agree that a speech clinician must be supervised by a properly qualified speech pathologist.
              not properly supervised and therefore we agree with the disallowance recommendations
of 10/20 and 10/22.

In regard s to the disallowance recommendations for 10/1, 10/3, 10/7, 10/8, 10/10, 10/15, 10/17, 10/20,
10/21, 10/22, 10/24, 10/28, 10/29 and 10/31, we disagree that no documentation provided
demonstrated receipt of services on those days. We provided treatment notes that documented
treatment on 10/1, 10/3, 10/7, 10/8, 10/10, 10/15, 10/17, 10/20, 10/21, 10/22, 10/24, 10/28, 10/29 and
10/31 relative to specific Day Treatment Goals. We submit that this documentation fulfills the
                                                  13
                                                                                              Page 15 of 19

                                              AlTACHMENT A

 requirement of Section 41.07-4.G and K whereby a description of treatment, counseling or follow-up
 care was provided because it describes treatment related outcomes, even if the treatment was provided
 by an Educational Technician and documented by a licensed Clinical Social Worker. Attached please
 find that documentation at Appendix L.




 In regards to the disallowance recommendations for all of the claimed days in June 2006, we agree that
 no documentation provided demonstrated receipt of services on those days.               Should we uncover
 additional documentation in this regard, it will be provided.

~T#43
 We agree that a speech clinician must be supervised by a properly qualified speech pathologist.­
- w a s not properly supervised and therefore we agree with the disallowance recommendations
 of 10/1, 10/2, 10/3, 10/9, 10/10, 10/18, 10/22, 10/23 and 10/24.

 In regards to the disallowance recommendation for 10/16, we agree that no documentation provided
 demonstrated receipt of services on this day. Should we uncover additional documentation in this
 regard, it will be provided.




 In regards to   th~ disallowance recommendations for      6/1, 6/2, 6/7, 6/8 and 6/9, we disagree that no
documentation provided demonstrated receipt of services on those days. We provided treatment notes
that documented treatment on 6/1, 6/2, 6/7, 6/8 and 6/9 relative to specific Day Treatment Goals. We
submit that this documentation fulfills the requirement of Section 41.07-4.G and K whereby a
description of treatment, counseling or follow-up care was provided because ·i t describes treatment
related outcomes, even if the treatment was provided by an Educational Technician and documented by
a Licensed Clinical Social Worker. Attached please find that documentation at Appendix M.




In regards to the disallowance recommendations for 1/8, 1/15 and 1/22 relative to the Licensed Master
Social Worker providing counseling services, we disagree that counseling services were provided outside
of the Scope of the Maine Practice Act.         The Maine Unified Special Education Regulations define
counseling as "...services provided by qualified social workers, psychologists, or other qualified
personnel." 05-071-101 Me. Code R. §XI (2008). As defined in the Social Workers Practice Act, "'Social
work' means engaging in psychosocial evaluation and intervention .. . to effect a change in the feelings,
attitudes and behavior of a client, whether an individual, group or community. 'Social work' also means
engaging in community organization, social planning, administration and research." 32 M.R.S. §7001-A
(11).   Within the allowed functions of a Licensed Master Social Worker, the Social Worker Practice Act .
makes it clear that " ... [a]ny licensed master social worker may: ...[p]erform all of the functions of a
licensed social worker. ..."(32 M.R.S. §7053-A{l)(B)) "... A licensed social w o rker may ...conduct basic data
gathering of records and specific life issues of individuals, groups and families, assess this data and
formulate and implement a plan to achieve specific goals relative to specific life issues." 32 M .R.S.

                                                      14
                                                                                             Page 16 of 19

                                             ATTACHMENT A

 §7053-A{4)(A). In the case of this student, the services provided were within the boundaries of the scope
 of practice of this Licensed Master Social Worker because t he services were meant to implement      a plan
 to achieve specific goals relative to specific life issues. Specifically, this child's IEP indicated that he
 needed the support of Day Treatment Services relative to struggles with depressed mood, diminished
 interest in activities, decreased concentration, suicidal ideation and hopelessness, which were
 apparently rooted in the academic pressures ofschool.

 The Licensed Master Social Worker provided services within the scope of the Maine Practice Act, and we
 therefore disagree that a disallowance is required.

 We disagree that the social worker notes for 1/29 and 1/31 do not indicate the type of Day Treatment
 Services provided. The notes for 1/29 and 1/31 indicate that services provided and monitored from a
 progress perspective included helping the child follow teacher direction, use respectful, kind and polite
words, keep hands and feet to himself, and take appropriate breaks at time of anger or frustration. All
 of these Day Treatment Services were geared towards helping this child improve his funCtioning in daily
 living and community living pursuant to Section 41.04. Please find this documentation at Appendix N.

In regards to the disallowance recommendations for 1/4, 1/9, 1/11, 1/16, 1/18, 1/23, 1/25, 1/28 and
1/30, we disagree that no documentation provided demonstrated receipt of services on those days. We
provided treatment notes that documented treatment on 1/4, 1/9, 1/11, 1/16, 1/18, 1/23, 1/25, 1/28
and 1/30 relative to specific Day Treatment Goals.          We submit that this documentation fulfills the
requirement of Section 41.07-4.G and K whereby a description of treatment, counseling or follow-up
care was provided because it describes treatment related outcomes, even if the treatment was provided
by an Educational Technician and documented by a Licensed Master Social Worker. Attached please
find that documentation at Appendix N.




In regards to the disallowance recommendations for 11/1, 11/3, 11/7, 11/14, 11/20, 11/21, 11/29 and
11/30, we agree that no documentation provided demonstrated receipt of services on those days.
Should we uncover additional documentation in this regard, it will be provided.




In regards to the disallowance recommendations for June 2007, we agree that no documentation
provided demonstrated receipt of services on those days. Should we uncover additional documentation
in this regard, it will be provided.




We disagree that there was no referral by a qualifying provider for social work services in February 2007.
The regulations only required a referral by the Pupil Evaluation Team (now known as the Individualized
Education Program Team) based on the development of an Individual Education Plan. 10-144-101 ME.
CODER.   §41.02.8.2 (2006).




                                                       15
                                                                                           Page 17 of 19

                                             AITACHMENT A

 In this case, we provided a copy of the child's IEP during the audit which formed the basis of the referral
 from the team fo r Day Treatment Services. In additio n, the federal regulations do not require a referral
 for social work services.

 In regards to t he disallowance recommendations for February 2007, we ngree that no documentation
 provided demonstrated receipt of services on those days. Should we uncover additional documentation
 in this regard, it will be provided.




 We agree that this child was marked absent on the service delivery. log on 2/12, and therefore a ·
 disallowance is appropriate.




 In regards to the disallowance recommendations for October 2007, we agree that no documentation
provided demonstrated receipt of services on those days. Shou ld we uncover additional documentation
in this regard, it will be provided.

                               DT#52

In regards to the disallowance recommendatio ns for 1/4, 1/5, 1/8, 1/11, 1/12, 1/19, 1/25 and 1/26, we
agree that no documentation provided demonstrated receipt of serv i ce~ on those days. Should We
uncove r additional documen tation in this regard, it will be provided.




In regards to the disallowance recommendations for 1/4, 1/6, 1/9, 1/11, 1/13, 1/18, 1/20, 1/23, 1/25,
1/27 and 1/30, we agree that no documentation provided demonstrated rece ipt of services on those
days. Should we uncover additional documentation in this regard, it will be prov ided.




In regards to the disallowance recommendations for 11/2, 11/6, 11/13, 11/14, 11/16, 11/26, 11/27,
11/28 and 11/30, we agree that no documentation provided demonstrated receipt of services on those
days. Should we uncover additional documentation in this regard, it will be provided.




In regards to the disallowance recommendations for 2/5, 2/11, 2/12, 2/15, 2/26, 2/28 and 2/29 relative
to the Licensed Master Social Worker providing counse ling services, we disagree that counseling
services were provided outside of the Scope of the Maine Practice Act. The Maine Unified Special
Education Regulations define counseling as " ...services provided by . qualified social workers,
psychologists, or other qualified personnel." 05-071-101 Me. Code R. § XI (2008). As defined in the
Social Workers Practice Act, "'Social work' means engaging in psychosocial evaluation and intervention .
. . to effect a change in the feelings, attitudes and behavior of a client, whether an individual, group or
community.      'Social work' also means engaging in community organization, social planning,

                                                     16
                                                                                               Page 18 ofl9

                                               ATTACHMENT A

 administration and research." 32 M.R.S. §7001-A (11).          Within the allowed functions of a Licensed
 Master Social Worker, the Social Worker Practice Act makes it dear that " ... [a]ny licensed master social
 worker may:... [p]erform all of the functions of a lice nsed social worker ...."(32 M.R.S. §7053-A(1){B)) " ...
 A licensed social worker may ...conduct basic data gathering of records and specific life issues of
 individuals, groups and families, assess this data and forrrJUiate and implement a plan to achieve specific
 goals relative to specific life issues." 32 M.R.S. §7053-A(4)(A}. In the case of this student, the services
 provided were within the boundaries of the scope of practice of this Licensed Master Social Worker
 because the services were meant to implement a plan to achieve specific goals relative to specific life
 issues . Specifically, this child's IEP indicated that he needed the support of Day Treatment Services
 relative to difficulty with anxiety and disruptions in the school setting due to oppositional behavior. The
 IEP also indicated   a need for routines and rules in regards to daily living and community integration.

The Licensed Master Social Worker provided services within the scope of the Maine Practice Act, and we
therefore disagree that a disallowance is required .

 In regards to the disallowance recommendation for 2/4-, we agree that no documentation provided
demonstrated receipt of services on that day. Should we uncover additional documentation in this
regard, it will be provided.

In regards to the disallowance recommendations for 2/1, 2/6, 2/8, 2/25 and 2/27, we disagree that no
documentation provided demonstrated receipt of services on those days. We provided treatment notes
that documented treatment on 2/1, 2/6, 2/8, 2/25 and 2/27 relative to specific Day Treatment Goals.
We submit that this documentation fulfills the requirement of Section 41.07-4.G and K whereby a
description of treatment, counseling or follow-up care was provided because it describes treatment
refated outcomes, even if the treatment was provided by an Educational Technician and documented by
a Licensed Master Social Worker. Attached please find that documentation at Appendix 0.




We disagree that there was no referral for OT services on 6/3 and 6/10. The regulations only required a
referral by the Pupil Evaluation Team (now known as the Individualized Education Program Team) based
on the development of an Individual Education Plan. 10-144-101 ME. CODER. §41.02.8.2 (2006) . In this
case, we provided access to the child's IEP during the audit which formed the basis of the referral from
the team for Day Treatment Services.

In regards to the disallowance recommendations for 6/2, 6/4, 6/6, 6/9, 6/11, 6/12, 6/13, 6/16, 6/17 and
6/18, we agree that no documentation provided demonstrated receipt of services on those days.
Should we uncover additional documentation in this regard, it will be provided.




In regards to the disallowance recommendations for June 2008, we agree that no documentatio n
provided demonstrated receipt of services on those days. Should we uncover additional documentation
in this regard, it will be provided.



                                                       17
                                                                                           Page 19 of 19

                                             ATIACHMENTA 


We disagree that there was no referral for OT services on 3/11, 3/14 and 3/18. The regulations only
required a referral by the Pupil Evaluation Team {now known as the Individualized Education Program
Team) based on the deve lopment of an Individual Education Plan. 10-144-101 Me CooE R. §41.02.8.2
(2006).

In this case, we provided access to the child' s IEP during the audit which formed the basis of the referral
from the team for Day Treatment Services.

We agree that speech was provided by an unsupervised speech clinician.

We disagree that because the service note does not indicate any assessment of progress on a daily basis,
a disallowance is appropriate. Pursuant to Section 41.07-4. G, all. that is required of a daily note is a
" ...description of treatment..."   The da ily notes in this case did provide a description of the daily
interventions and thus were in compliance with tht:! regulation.




We appreciate the opportunity to respond to the initial findings.




Sincerely,




Director of Student Support Services

Portland School District




                                                    18
                                   APPENDIX D: STATE AGENCY COMMENTS
                                                                                                      Page 1 of 2
                                                                              Department of Health and Human Services
                                                                                                   Commissioner' s Office
                                                                                                           221 State Street
                                                                                                   11 State House Station
                                                                                              Augusta, Maine 04333-0011
                                                                                  Tel.: (207) 287-3707; Fax (207) 287-3005
Paul R. LePage, Governor    Mary C. Mayhew, Commissioner                              TTY Users: Dial711 (Maine Relay)



                                                           April12, 2013


        Michael J. Armstrong, Regional Inspector General for Audit Services 

        Office of Audit Services, Region I 

        John F. Kennedy Federal Building, Room 2425 

        Boston, MA 02203 


               Re: Maine Improperly Claimed Medicaid Payments for School-Based Health Services 

                   Submitted by Portland School Department- Report Number A-01-11-00011. 


        Dear Mr. Armstrong:

                The Department of Health and Human Services (DHHS) appreciates the opportunity to
        respond to the above mentioned draft audit report. We offer the following comments in relation
        to the recommendations on Page 5 of this report.

                 For your convenience, below we include the summary finding and list each 

         recommendation followed by our response. Each response includes the State's proposed 

         corrective action plan which we believe will bring the State into compliance with Federal 

         requirements. 


                    Finding:
                    The State agency did not always claim Federal Medicaid reimbursement for school-based
                    health services submitted by the Portland School Department in accordance with Federal
                    and State requirements. Of the 120 student months in our random sample, 56 had
                    services, totaling $24,793 ($15,966 Federal share), that were not adequately supported,
                    were provided by unqualified providers, or both. Based on our sample results, we
                    estimated that the State agency improperly claimed $1,039,046 ($667,569 Federal share)
                    for Medicaid payments made to the Portland School Department. These errors occurred
                    because the State agency did not adequately monitor the claims for school-based health
                    services submitted by the Portland School Department.

                    Recommendation:
                    Refund $667,569 to the Federal Government.

                    Response:
                    The Department agrees that the Portland School Department received an overpayment
                    due to billing for services for which there was not adequate documentation to support the
                    billing. The Department will refund the Federal Government after receipt of the final
                    report.
                                                                                       Page 2 of 2

Michael J. Armstrong, Regional Inspector General for Audit Services
April 12, 2013
Page Two

        Recommendation:
        Work with CMS to review Medicaid payments made to the Portland School Department
        after our audit period and refund any overpayments.

        Response:
        The Department will review the Portland School Department for services provided from
        January 1, 2009 and through August 31,2010, at which time Section 104, School Based
        Rehabilitation Services was repealed.

        Recommentation:
        Strengthen its oversight of the Maine Medicaid school-based health services program to
        ensure that claims for school-based health services comply with Federal and State
        requirements.

        Response:
        Maine has addressed this issue by repealing Section 104, School Based Rehabilitation
        Services of the MaineCare Benefits Manual. Schools must now enroll and bill for
        specific State Plan services provided. The Department is currently reviewing claims and
        supporting documentation for behavioral and rehabilitation services for regulatory
        compliance. School providers are included in these service reviews.

        We appreciate the time spent in Maine by OIG's staff reviewing Maine's claimed
Medicaid payments for school-based health services submitted by the Portland School
Department. We believe this effort will enable us to perform this function more accurately in the
future.




                                            Mary C. Mayhew
                                            Commissioner

MCM!klv

cc: 	   William Boeschenstein, COO, Maine DHHS
        Stefanie Nadeau, Director, Office ofMaineCare Services, DHHS
        Herb Downs, Director, Division of Audit, DHHS
        Timothy Lawrence, Division of Audit, DHHS
        Beth Ketch, Division Director, Office of MaineCare Services, DHHS
        Sarah Gove, Senior Managing Accountant, Maine DHHS
        Janine Raquet, AAG
